                                OF   "~~.LJ                                          Office of Inspector Genera!
                                                                                      Office of Audit Services

                                                                                           REGION IV
                                                                               61 Forsyth Street, S.W., Suite 3T41
                                                                                    Atlanta, Georgia 30303




Report Number: A-04-07-07027

Mr. Jerry Dubberly, Chief
Division of Medical Assistance Plans
Georgia Department of Community Health
2 Peachtree, NW, 36th Floor
Atlanta, Georgia 30303

Dear Mr. Dubberly:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office ofInspector
General (OIG), final report entitled "Follow-up Review of the Medicaid Drug Rebate Program in
Georgia." We will forward a copy of this report to the HHS action official noted on the
following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Pursuant to the Freedom ofInformation Act, 5 U.S.C. § 552, OIG reports generally are made
available to the public to the extent that information in the report is not subject to exemptions in
the Act. Accordingly, this report will be posted on the Internet at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Denise Rivera Novak, Audit Manager, at (305) 536-5309, extension 10, or through email
at Denise.Novak@oig.hhs.gov. Please refer to report number A-04-07-07027 in all
correspondence.

                                              Sincerely,



                                              Peter J. Barbera
                                              Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Mr. Jerry Dubberly


Direct Reply to HHS Action Official:

Jackie Garner, Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, Illinois 60601
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




   FOLLOW -UP REVIEW OF THE
    MEDICAID DRUG REBATE
     PROGRAM IN GEORGIA




                    Daniel R. Levinson
                     Inspector General

                        July 2009
                      A-04-07-07027
                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                             Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the Freedom of Information Act, 5 U.S.C. ' 552, Office of
Inspector General reports generally are made available to the public to
the extent that information in the report is not subject to exemptions in
the Act.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

The Medicaid drug rebate program, which began in 1991, is set forth in section 1927 of the
Social Security Act. For a manufacturer’s covered outpatient drugs to be eligible for Federal
Medicaid funding under the program, the manufacturer must enter into a rebate agreement with
the Centers for Medicare & Medicaid Services (CMS) and pay quarterly rebates to the States.
CMS, the States, and drug manufacturers each undertake certain functions in connection with the
drug rebate program. In Georgia, the Department of Community Health (the State agency)
administers the Medicaid drug rebate program.

In 2005, we issued a report on the results of audits of the Medicaid drug rebate programs in 49
States and the District of Columbia (A-06-03-00048). Those audits found that only four States
had no weaknesses in accountability for and internal controls over their drug rebate programs.
As a result of the weaknesses, we concluded that States lacked adequate assurance that all of the
drug rebates due to the States were properly recorded and collected. Additionally, CMS did not
have reliable information from the States to properly monitor the drug rebate program.

In our previous audit of the Georgia drug rebate program (A-04-03-06010), we determined that
the State agency had weaknesses over its drug rebate program in the areas of billing procedures,
reconciliation of records, dispute resolution, and write-offs. We recommended that the State
agency:

       more closely monitor fiscal agent activities,

       accurately report drug rebate activities on the Form CMS-64.9R,

       follow CMS guidelines in the collection process, and

       determine and document the amount of the rebate write-offs that occurred during the
        1998 transition to First Health Services (FHS).

The State agency agreed that they would review the Drug Rebate Program by taking into account
the recommendations in our report.

This current review of Georgia is part of a nationwide series of reviews conducted to determine
whether States have addressed the weaknesses in accountability for and internal controls over
their drug rebate programs found in the previous reviews. Additionally, because the Deficit
Reduction Act of 2005 required States, as of January 2006, to begin collecting rebates on single
source drugs administered by physicians, this series of reviews will also determine whether
States have complied with the new requirement.




                                                 i
OBJECTIVES

Our objectives were to determine whether the State agency had (1) implemented the
recommendations made in our previous audit of the Georgia drug rebate program and (2)
established controls over collecting rebates on single source drugs administered by physicians.

SUMMARY OF FINDINGS

The State agency implemented the recommendations from our previous audit relating to (1)
monitoring fiscal agent activities and (2) accurately reporting drug rebate activities on the Form
CMS-64.9R. However, the State agency did not implement the two recommendations relating to
(3) the collection process and (4) write-offs.

The State agency had established controls over collecting rebates on single source drugs
administered by physicians.

The Collection Process

The State agency reported an outstanding drug rebate receivables balance of $67,237,892 that
was more than 1 year old on its June 30, 2006, Form CMS-64.9R. However, the State agency
did not have a report showing the age of the receivables for the amount reported as over 1 year
old.

The State agency’s reporting process continues to be affected by inadequate record keeping and
missing documentation from the period covered by its previous fiscal agent, Electronic Data
Systems (EDS). As a result, the State agency could not determine exactly what amount in
uncollected drug rebates to pursue from the manufacturers.

Furthermore, as stated in our previous report, the State agency had never used the hearing
mechanism in its collection process. According to a State agency official, the hearing
mechanism still has not been used because no manufacturers have absolutely refused to pay.

Write-offs

The State agency did not implement our recommendation from the previous report because they
were unable to determine an accurate accounts receivable balance as of the 1998 transition from
EDS to FHS. During the transition, EDS did not provide FHS with accurate accounts receivable
data because of EDS’s inadequate recordkeeping. As a result, the State agency is unable to
correctly identify drug rebate amounts due to the State agency from the various manufacturers.

RECOMMENDATIONS

We recommend that the State agency actively pursue collection of aged accounts receivable and
use the hearing mechanism in its collection process to resolve disputed and outstanding drug




                                                ii
rebate accounts receivable. We also recommend that the State agency work with the
manufacturers and FHS to determine accurate drug rebate accounts receivable that existed during
the transition to FHS and resolve outstanding balances.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency described its plans to respond to our
recommendations. Specifically, it is making efforts to reconcile rebates from the 1991–1998
undocumented transition period and to recover the approximately $67 million in outstanding
drug rebate receivables identified above. The State agency’s comments are included in their
entirety as the Appendix.




                                                iii
                                                    TABLE OF CONTENTS

                                                                                                                               Page

INTRODUCTION............................................................................................................1

     BACKGROUND .........................................................................................................1
       Drug Rebate Program ............................................................................................1
       Physician-Administered Drugs .............................................................................1
       Previous Office of Inspector General Reports .......................................................2
       Georgia Drug Rebate Program...............................................................................2

     OBJECTIVES, SCOPE, AND METHODOLOGY .....................................................3
       Objectives ...............................................................................................................3
       Scope.......................................................................................................................3
       Methodology ...........................................................................................................3

FINDINGS AND RECOMMENDATIONS ..................................................................4

     IMPLEMENTATION OF PREVIOUS RECOMMENDATIONS .............................4
        Rebate Collection Requirements............................................................................4
        The Collection Process ..........................................................................................5
        Write-offs...............................................................................................................5

     PHYSICIAN-ADMINISTERED SINGLE SOURCE DRUGS ..................................6

     RECOMMENDATIONS.............................................................................................6

     STATE AGENCY COMMENTS................................................................................6

     APPENDIX




                                                                      iv
                                             INTRODUCTION

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to certain low-income individuals and individuals with disabilities. The
Federal and State Governments jointly fund and administer the Medicaid program. At the
Federal level, the Centers for Medicare & Medicaid Services (CMS) administer the program.
Each State administers its Medicaid program in accordance with a CMS-approved State plan.
Although the State has considerable flexibility in designing and operating its Medicaid program,
it must comply with applicable Federal requirements.

Drug Rebate Program

The Medicaid drug rebate program, which began in 1991, is set forth in section 1927 of the Act.
For a manufacturer’s covered outpatient drugs to be eligible for Federal Medicaid funding under
the program, the manufacturer must enter into a rebate agreement with CMS and pay quarterly
rebates to the States. CMS, the States, and drug manufacturers each undertake certain functions
in connection with the drug rebate program. In Georgia, the Department of Community Health (the
State agency) is responsible for the drug rebate program.

Pursuant to section II of the rebate agreement and section 1927(b) of the Act, manufacturers are
required to submit a list to CMS of all covered outpatient drugs and to report each drug’s average
manufacturer price and, where applicable, best price. Based on this information, CMS calculates
a unit rebate amount for each covered outpatient drug and provides the amounts to States
quarterly.

Section 1927(b)(2)(A) of the Act requires States to maintain drug utilization data that identifies,
by National Drug Code (NDC), the number of units of each covered outpatient drug for which
the States reimbursed providers. The number of units is applied to the unit rebate amount to
determine the actual rebate amount due from each manufacturer. Section 1927(b)(2) of the Act
requires States to provide the drug utilization data to CMS and the manufacturer. States also
report drug rebate accounts receivable data on Form CMS-64.9R. This is part of Form CMS-64,
“Quarterly Medicaid Statement of Expenditures for the Medical Assistance Program,” which
summarizes actual Medicaid expenditures for each quarter and is used by CMS to reimburse
States for the Federal share of Medicaid expenditures.

Physician-Administered Drugs

Section 6002(a) of the Deficit Reduction Act of 2005 (DRA) amends section 1927(a) of the Act
and requires States, as of January 1, 2006, to collect and submit utilization data for single source
drugs administered by physicians so that States may obtain rebates for the drugs.1 Single source
drugs are commonly referred to as “brand name drugs” and do not have generic equivalents.


1
 This provision of the DRA expands the requirement to certain multiple source drugs administere d by physicians
after January 1, 2008.


                                                        1
In Georgia, physician-administered drugs are billed to the State Medicaid program on a
physician services claim form (CMS 1500) using procedure codes that are part of the Healthcare
Common Procedure Coding System. The NDC and J-Codes are both included on the claim form.

Previous Office of Inspector General Reports

In 2005, we issued a report on the results of audits of the Medicaid drug rebate programs in 49
States and the District of Columbia.2 Those audits found that only four States had no
weaknesses in accountability for and internal controls over their drug rebate programs. As a
result of the weaknesses, we concluded that States lacked adequate assurance that all of the drug
rebates due to the States were properly recorded and collected. Additionally, CMS did not have
reliable information from the States to properly monitor the drug rebate program.

In our previous audit of the Georgia drug rebate program, we determined that the State agency
had weaknesses over its drug rebate program, in the areas of billing procedures, reconciliation of
records, dispute resolution, and write-offs.3 We recommended that the State agency:

        more closely monitor fiscal agent activities,

        accurately report drug rebate activities on the Form CMS-64.9R,

        follow CMS guidelines in the collection process, and

        determine and document the amount of the rebate write-offs that occurred during the
         1998 transition to First Health Services (FHS).

The State agency agreed that they would review the drug rebate program by taking into account
the recommendations in our report.

Georgia Drug Rebate Program

The State agency contracts with its fiscal agent, FHS, to perform all drug rebate program
functions other than receiving rebate funds and handling disputes in the second phase of the
dispute resolution process. FHS’s responsibilities included posting payments and producing
quarterly rebate invoices. The State agency reported an outstanding drug rebate balance of
$160,933,695 on the June 30, 2006, Form CMS-64.9R. However, $74,437,609 of this amount
related to quarterly billings and was not past due as of June 30, 2006. Of the remaining
$86,496,086 that was past due, $67,237,892 was more than 1 year old. For the fiscal year ended
June 30, 2006, the State agency reported rebate billings of approximately $269 million and
collections of $272.3 million.4

2
 “Multistate Review of Medicaid Drug Rebate Programs” (A-06-03-00048), issued July 6, 2005; Arizona was not
included because it did not operate a drug rebate program.
3
 “Audit of the Medicaid Drug Rebate Program in the State of Georgia” (A-04-03-06010), issued August 29, 2003.
4
 Billing amounts represent current quarter billings. Collection amounts represent current quarter and prior quarter
collections.


                                                          2
This current review of the Georgia drug rebate program is part of a nationwide series of reviews
conducted to determine whether States have addressed the weaknesses in accountability for and
internal controls over their drug rebate programs found in the previous reviews. Additionally,
because the DRA required States, as of January 1, 2006, to begin collecting rebates on single
source drugs administered by physicians, this series of reviews will also determine whether
States have complied with the new requirement.

OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

Our objectives were to determine whether the State agency had (1) implemented the
recommendations made in our previous audit of the Georgia drug rebate program and (2)
established controls over collecting rebates on single source drugs administered by physicians.

Scope

We reviewed the State agency’s current policies, procedures, and controls over the drug rebate
program and the accounts receivable data reported on Form CMS-64.9R as of June 30, 2006.

We performed our fieldwork from July through October 2007 at the offices of the State agency
and its fiscal agent in Atlanta, Georgia.

Methodology

To accomplish our objectives, we:

       reviewed section 1927 of the Act, section 6002(a) of the DRA, CMS guidance issued to
        State Medicaid directors and other information pertaining to the Medicaid drug rebate
        program;

       reviewed the policies and procedures related to the fiscal agent’s drug rebate accounts
        receivable system;

       interviewed State agency officials and fiscal agent staff to determine the policies,
        procedures, and controls that related to the Medicaid drug rebate program;

       reviewed copies of Form CMS-64.9R for the period July 1, 2005, through June 30, 2006,
        in addition to June 30, 2002, and September 30, 2007;

       reviewed supporting documentation for the outstanding accounts receivable balances on
        Form CMS-64.9R as of September 30, 2007;

       interviewed fiscal agent staff and reviewed documentation to determine whether
        inaccurate drug rebate amounts had been adjusted accordingly;


                                                  3
      interviewed fiscal agent staff to determine the processes used in converting physician
       services claims data into drug rebate data related to single source drugs administered by
       physicians; and

      reviewed rebate billings and reimbursements for procedure codes related to single source
       drugs administered by physicians for the period January 1 through June 30, 2006.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                          FINDINGS AND RECOMMENDATIONS

The State agency implemented the recommendations from our previous audit relating to (1)
monitoring fiscal agent activities and (2) accurately reporting drug rebate activities on the Form
CMS-64.9R. However, the State agency did not implement the two recommendations relating to
(3) the collection process and (4) write-offs.

The State agency had established controls over collecting rebates on single source drugs
administered by physicians.

IMPLEMENTATION OF PREVIOUS RECOMMENDATIONS

In our previous audit of the Georgia drug rebate program, we determined that the State agency’s
billing system procedures were inefficient, supporting records and reports were not accurate, and
the dispute resolution process did not conform to CMS’s guidelines. Also, an undetermined
amount of rebate accounts receivables adjustments occurred during the transition to a new fiscal
agent in 1998.

Since our previous audit, the State agency has improved its monitoring of fiscal agent activities
by (1) implementing edits in FHS’s billing system to detect unreasonable or aberrant error
conditions, and (2) ensuring that supporting records and reports are accurate. However, we
noted issues that still existed relating to the collection process and adjustments.

Rebate Collection Requirements

State agencies are required to maintain adequate supporting records to account for drug rebates.
Pursuant to 42 CFR § 433.32(a), States are required to “[m]aintain an accounting system and
supporting fiscal records to assure that claims for Federal funds are in accord with applicable
Federal requirements . . . .”

Furthermore, collection process procedures have been established in the event that the State and
the manufacturer are unable to resolve a drug rebate discrepancy. According to the Rebate


                                                4
Agreement (V)(c), “The State and the Manufacturer will use their best efforts to resolve the
discrepancy within 60 days of receipt of such notification. In the event that the State and the
Manufacturer are not able to resolve a discrepancy within 60 days, CMS shall require the State to
make available to the Manufacturer the State hearing mechanism available under the Medicaid
Program . . . .” In addition, 42 CFR § 447.253(e), which pertains to provider appeals, states that
“[t]he Medicaid agency must provide an appeals or exception procedure that allows individual
providers an opportunity to submit additional evidence and receive prompt administrative
review, with respect to such issues as the agency determines appropriate, of payment rates.”

The Collection Process

The State agency reported an outstanding drug rebate receivables balance of $67,237,892 that
was more than 1 year old on its June 30, 2006, Form CMS-64.9R. However, the State agency
did not have a report showing the age of the receivables for the amount reported as over 1 year
old. The State agency produced an aging report for the quarter ended September 30, 2007, but it
was not accurate.

The State agency’s reporting process continues to be affected by inadequate record keeping and
missing documentation from the period covered by its previous fiscal agent, Electronic Data
Systems (EDS). Because of this previously reported condition, which has yet to be resolved,
FHS, the current fiscal agent, was unable to accurately support the receivables balance more than
1 year old. As a result, the State agency could not determine exactly what amount in uncollected
drug rebates to pursue from the manufacturers.

Furthermore, as previously reported, the State agency had never used the hearing mechanism in
its collection process. During our current review, a State agency official informed us that the
State agency still has not used the hearing mechanism in its collection process. The official
stated that this procedure has not been necessary because no manufacturers have absolutely
refused to pay. However, making the hearing mechanism available to the manufacturer may help
the State agency resolve disputed drug rebates.

Write-offs

The State agency did not implement our recommendation from the previous report because they
were unable to determine an accurate accounts receivable balance as of the 1998 transition from
EDS to FHS. During the transition, EDS did not provide FHS with accurate accounts receivable
data because of EDS’s inadequate recordkeeping. According to a State official, it was not
possible to recreate a history of what was paid by manufacturer under the previous fiscal agent.
As a result, the State agency is unable to identify the amount of rebate payments that is still due
to the State agency from the various manufacturers.




                                                 5
PHYSICIAN-ADMINISTERED SINGLE SOURCE DRUGS

The State agency had established controls over collecting rebates for single source drugs
administered by physicians as required by the DRA. The State agency paid $57,297,480 in
claims for physician-administered drugs during the January through June 2006 period and billed
manufacturers for rebates totaling $23,841,056.

RECOMMENDATIONS

We recommend that the State agency actively pursue collection of aged accounts receivable and
use the hearing mechanism in its collection process to resolve disputed and outstanding drug
rebate accounts receivable. We also recommend that the State agency work with the
manufacturers and FHS to determine accurate drug rebate accounts receivable that existed during
the transition to FHS and resolve outstanding balances.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency described its plans to respond to our
recommendations. Specifically, it is making efforts to reconcile rebates from the 1991–1998
undocumented transition period and to recover the approximately $67 million in outstanding
drug rebate receivables identified above. The State agency’s comments are included in their
entirety as the Appendix.




                                                6
APPENDIX
                                                                                                          APPENDIX
                                                                                                           Page 1 of 2



~\     GEORGIA DEPART/,IENT OF
 jl!   COMMUNITY HEALTH                                                                       2 Peachtree Street, NW
                                                                                              Atlanta, GA 30303-3159
       Rhonda M Medows, MD, Commissioner               Sonny Perdue, Governor                 www.dch.georgia.gov



                                                    May 26, 2009


Report Number A-04-07-07027

Mr. Peter J. Barbera
Regional Inspector General for Audit Services
Region IV
61 Forsyth Street, S. W. Suite 3] 41
Atlanta, GA 30303

Dear Mr. Barbera:

The Georgia Department of Community Health (DCH) has reviewed the draft report entitled "Follow-up Review
of the Medicaid Drug Rebate Program in Georgia" from the U. S. Department of Health and Human Services,
Office oflnspector General (OIG) regarding the audit, findings and recommendations contained in report number
A-04-07-07027.

DCH's response to the findings as well as OIG recommendations as stated on page six (6) in the draft report are
detailed below.

"We recommend tha.t the state agency actively pursue collection of aged accounts receivable and use the
hearing mechanism in its collection process to resolve disputed and outstanding drug rebate accounts
receivable. We also recommend that the State agency work with the manufacturers and FRS to determine
accurate drug rebate accounts receivable that existed during the transition to FRS and resolve outstanding
balances."

DCJ-l Response:
       • In December 2008, after a thorough review and evaJuation of the undocumented rebate period of ] 991
           - 1998 and available supporting documents, DCH decided that a direct written communication plan
           was needed instead of the reliance on the Prior Period Adjustment (PPA) notification. First Health
           Services Company, Inc. (FHS) sent letters to labelers and received a 66% (10 of 15) response. The
           reconciliation process is complete for five (5) labelers, and the others are in process with completion
           targeted for September 1,2009. Additional outreach will be made to the non-responders by July 1,
           2009,
           The Dunning process has been used routinely to remind labelers and request payments of outstanding
           balances. This process has been enhanced through the use of a Standard Operating Procedure (SOP)
           for Late Payments and Uncooperative Labelers which was implemented in December 2008. This
           process alters the activities required for greater efficiency .in collections and labeler communications.
           Implementing and applying eMS thresholds for 1998Q2 and forward is currently under review to
           ensure compliance with State regulations and procedures for write offs.
           Prior Period Adjustment notices have been sent routinely each quarter since 1998Q3 to remind
           labelers of outstanding balances.
       • Progress has been documented in the reduction of the audited balance of$67,237,892. This figure has
           been reduced by $24,550,991 as of May 1,2009. The aged receivables will continue to be monitored
           to complete reconciliation in accordance with the Statement of Understanding (SOU) initiated in
           December 2008.
                                                                                                                 APPENDIX
                                                                                                                  Page 2 of 2




DCH response to audit
Page 2
May 26,2009


            DCH has not used the hearing mechanism to collect outstanding balances from uncooperative
            labelers. However, DCH is addressing this based on the CMS guidelines and through the process
            established in the SOP revising the Dunning notification process and timeline.

To prevent aging of current outstanding balances the Late Payments and Uncooperative Labelers Standard
Operating Procedures (SOP) focuses on actions that will be taken to address current I.abelers that are
unresponsive. This includes those that do not follow up after being contacted and those agreeing to payment of
balances but fail to do so. The process will provide documentation of reasons given for non-payment. Included in
the SOP is the process for notifying eMS after two Dunning notices have been sent at 45 days and again at 75
days with a subsequent phone call to the non-responders. At 90 days, a review is done to determine if a payment
has been received by the date promised or if the labeler is still non-compliant. A report of these labelers as
uncooperative is sent to DCH at 90 days after the review is completed. Upon notice, DCH will send a letter
endorsed by its legal department prior to proceeding to a hearing as a final measure to obtain the outstanding
balances.

DCB recognizes that the cost of pursuing and collecting very low balances is expensive financially and requires a
large number of man hours to resolve. Previously, DCH had a zero threshold for write-offs. However,
consideration to a process consistent with both federal and state requirements is underway.

It is anticipated that with the actions planned and currently being executed as mentioned above for the rebate
program, the recommendations and findings will satisfy the auditor's reqUirements. Ifthere are additional
questions or clarifications needed, please do not hesitate to call me at 404-657-7793 or by email at
jdubberlvlaldch.gagov.




                                                     Jerry Dubberly, Chief
                                                     Med ical Assistance Plans

cc: Rhonda Medows
   Adrian Washington




                                               Equal OppomlOlly Employer
